HHS/OIG, Audit -"Great Brook Valley Health Center Community Health Center Cluster Grant Year
Ended May 31, 2004,"(A-01-05-01500)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Great Brook Valley Health Center Community Health Center Cluster Grant Year Ended May 31, 2004," (A-01-05-01500)
May 4, 2005
Complete
Text of Report is available in PDF format (98 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to obtain an understanding of the financial and program performance
for the Federal grants at Great Brook Valley Health Center and to ensure that Federal funds were used
in accordance with the terms of the grants.  We found the reported costs and program performance
for FY 2004 to be in compliance with applicable Federal regulations.  Accordingly, we have no
further comments or recommendations to make regarding this review.